APPENDIX TABLE OF CONTENTS
Judgment entered September 9, 2019, United States v. Timothy Allen McWilliams,
S.D. Iowa No. 4:19-CR-0054-RGE-HCA..................................................................... A2
Judgment entered May 29, 2020, United States v. Timothy Allen McWilliams, Eighth
Circuit Court of Appeals No. 19-3158 ...................................................................... A13
Opinion entered May 29, 2020, United States v. Timothy Allen McWilliams, 807 Fed.
Appx. 589 (8th Cir. 2019) (Mem) .............................................................................. A14

A1

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case

Filed 09/20/19 Page 1 of 11

6KHHW

v1

81,7('67$7(6',675,&7&2857
SOUTHERN DISTRICT OF IOWA
JUDGMENT IN A CRIMINAL CASE

81,7('67$7(62)$0(5,&$

v.

&DVH1XPEHU 4:19-CR-00054-001

TIMOTHY ALLEN MCWILLIAMS

8601XPEHU 19043-030
Gina Messamer

'HIHQGDQW¶V$WWRUQH\

THE DEFENDANT:

✔SOHDGHGJXLOW\WRFRXQW V
G

One of the Indictment filed on March 20, 2019.

G SOHDGHGQRORFRQWHQGHUHWRFRXQW V
ZKLFKZDVDFFHSWHGE\WKHFRXUW

G ZDVIRXQGJXLOW\RQFRXQW V
DIWHUDSOHDRIQRWJXLOW\

The defendant is adjudicated guilty of these offenses:
Title & Section

?

Nature of Offense

21 U.S.C. § 841(a)(1),

Possession with Intent to Distribute at Least Five Grams of

841(b)(1)(B)

Actual Methamphetamine

Offense Ended

Count

02/26/2019

One

See additional count(s) on page 2

7KHGHIHQGDQWLVVHQWHQFHGDVSURYLGHGLQSDJHV 2 WKURXJK 7
6HQWHQFLQJ5HIRUP$FWRI

RIWKLVMXGJPHQW The sentence is impRVHGSXUVXDQWWo the

G 7KHGHIHQGDQWKDVEHHQIRXQGQRWJXLOW\RQFRXQW V
G &RXQW V

G LV

G DUHdismiVVHGRQWKHPRWLRQRIWKH8QLWHG6WDWHV

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

September 20, 2019
'DWHRI,PSRVLWLRQRI-XGJPHQW

Signature of Judge

Rebecca Goodgame Ebinger, U.S. District Judge
1DPHRI-XGJH7LWOHRI-XGJH

September 20, 2019
'DWH

A2

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 2 — Imprisonment
v1

Filed 09/20/19 Page 2 of 11
Judgment Page: 2 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
151 months as to Count One of the Indictment filed on March 20, 2019.

✔
G

The court makes the following recommendations to the Bureau of Prisons:

The defendant be placed at USP Leavenworth; the defendant be provided the opportunity to participate in the 500-hour
residential drug abuse program (RDAP); the defendant be provided the opportunity to participate in the Life Connections
program; and the defendant be provided the opportunity to participate in culinary arts and automotive vocational programs.

✔ The defendant is remanded to the custody of the United States Marshal.
G
G The defendant is remanded to the custody of the United States Marshal for surrender to the ICE detainer.
G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before

on

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

A3

DEPUTY UNITED STATES MARSHAL

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 3 — Supervised Release
v1

Filed 09/20/19 Page 3 of 11
Judgment Page: 3 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

SUPERVISED RELEASE

Upon release from imprisonment, you will be on supervised release for a term of :
5 years as to Count One of the Indictment filed on March 20, 2019.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
G You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
✔You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense. (check if applicable)
G You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

A4

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 3A — Supervised Release
v1

Filed 09/20/19 Page 4 of 11
Judgment Page: 4 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

A5

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 3D — Supervised Release
v1

Filed 09/20/19 Page 5 of 11
Judgment Page: 5 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a program of testing and/or treatment for substance abuse, as directed by the Probation Officer,
until such time as the defendant is released from the program by the Probation Office. At the direction of the probation
office, you must receive a substance abuse evaluation and participate in inpatient and/or outpatient treatment, as
recommended. Participation may also include compliance with a medication regimen. You will contribute to the costs of
services rendered (co-payment) based on ability to pay or availability of third party payment. You must not use alcohol
and/or other intoxicants during the course of supervision.
You must submit to a mental health evaluation. If treatment is recommended, you must participate in an approved
treatment program and abide by all supplemental conditions of treatment. Participation may include inpatient/outpatient
treatment and/or compliance with a medication regimen. You will contribute to the costs of services rendered
(co-payment) based on ability to pay or availability of third party payment.
You must participate in a cognitive behavioral treatment program, which may include journaling and other curriculum
requirements, as directed by the U.S. Probation Officer.
If not obtained while in Bureau of Prisons' custody, you must participate in GED classes as approved by the U.S. Probation
Office.
You will submit to a search of your person, property, residence, adjacent structures, office, vehicle, papers, computers (as
defined in 18 U.S.C. § 1030(e)(1)), and other electronic communications or data storage devices or media, conducted by a
U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. You must warn any other residents
or occupants that the premises and/or vehicle may be subject to searches pursuant to this condition. An officer may
conduct a search pursuant to this condition only when reasonable suspicion exists that you have violated a condition of
your release and/or that the area(s) or item(s) to be searched contain evidence of this violation or contain contraband. Any
search must be conducted at a reasonable time and in a reasonable manner. This condition may be invoked with or
without the assistance of law enforcement, including the U.S. Marshals Service.

A6

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
v1

Filed 09/20/19 Page 6 of 11
Judgment Page: 6 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

G Pursuant to 18 U.S.C. § 3573, upon the motion of the government, the Court hereby remits the defendant's Special Penalty

Assessment; the fee is waived and no payment is required.
Assessment
JVTA Assessment *
TOTALS
$ 100.00
$ 0.00

Fine

Restitution
$0.00

$ 0.00

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

G The determination of restitution is deferred until
after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Restitution Ordered

Total Loss**

$0.00

TOTALS

Priority or Percentage

$0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine

G restitution.

G restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.
A7

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
v1

Filed 09/20/19 Page 7 of 11
Judgment Page: 7 of 7

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $ 100.00
G
G not later than
✔ in accordance
G

G C,

due immediately, balance due

G D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

✔ F below; or
G
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

✔ Special instructions regarding the payment of criminal monetary penalties:
G

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

All criminal monetary payments are to be made to the Clerk's Office, U.S. District Court, P.O. Box 9344,
Des Moines, IA. 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All crimnal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,(5) fine
interest, (6) community restitution, (7) JVTA assessment, and (8) costs, including cost of prosecution and court costs.

A8

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

Filed 09/20/19 Page 8 of 11

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Attachment (Page 1) — Statement of Reasons
v1

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001
DISTRICT: SOUTHERN DISTRICT OF IOWA

STATEMENT OF REASONS

(Not for Public Disclosure)
Sections I, II, III, IV, and VII of the Statement of Reasons form must be completed in all felony and Class A misdemeanor cases.
I.

COURT FINDINGS ON PRESENTENCE INVESTIGATION REPORT
A. ✔ The court adopts the presentence investigation report without change.
B.
The court adopts the presentence investigation report with the following changes: (Use Section VIII if necessary)
(Check all that apply and specify court determination, findings, or comments, referencing paragraph numbers in the presentence report)

1.

Chapter Two of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarize the changes, including changes to base offense level, or specific offense characteristics)

2.

Chapter Three of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarize the changes, including changes to victim-related adjustments, role in the offense, obstruction of justice, multiple counts, or acceptance of
responsibility)

3.

Chapter Four of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarize the changes, including changes to criminal history category or scores, career offender status, or criminal livelihood determinations)

4.

Additional Comments or Findings: (include comments or factual findings concerning any information in the presentence report,
including information that the Federal Bureau of Prisons may rely on when it makes inmate classification, designation, or programming decisions;
any other rulings on disputed portions of the presentence investigation report; identification of those portions of the report in dispute but for which a
court determination is unnecessary because the matter will not affect sentencing or the court will not consider it)

C.
II.

The record establishes no need for a presentence investigation report pursuant to Fed.R.Crim.P. 32.
Applicable Sentencing Guideline: (if more than one guideline applies, list the guideline producing the highest offense level)

COURT FINDINGS ON MANDATORY MINIMUM SENTENCE (Check all that apply)
A. ✔ One or more counts of conviction carry a mandatory minimum term of imprisonment and the sentence imposed is at or
above the applicable mandatory minimum term.
One or more counts of conviction carry a mandatory minimum term of imprisonment, but the sentence imposed is below
B.
the mandatory minimum term because the court has determined that the mandatory minimum term does not apply based on:
findings of fact in this case: (Specify)
substantial assistance (18 U.S.C. § 3553(e))
the statutory safety valve (18 U.S.C. § 3553(f))
C.

III.

No count of conviction carries a mandatory minimum sentence.

COURT DETERMINATION OF GUIDELINE RANGE: (BEFORE DEPARTURES OR VARIANCES)
Total Offense Level: 31
Criminal History Category: VI
Guideline Range: (after application of §5G1.1 and §5G1.2)
Supervised Release Range: 4 to 5 years
Fine Range: $ 30,000
to $ 5,000,000

188 to 235 months

✔ Fine waived or below the guideline range because of inability to pay.

A9

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

Filed 09/20/19 Page 9 of 11
Not for Public Disclosure

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Attachment (Page 2) — Statement of Reasons
v1

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001
DISTRICT: SOUTHERN DISTRICT OF IOWA

STATEMENT OF REASONS
IV.

GUIDELINE SENTENCING DETERMINATION (Check all that apply)
A.
B.
C.

The sentence is within the guideline range and the difference between the maximum and minimum of the guideline range
does not exceed 24 months.
The sentence is within the guideline range and the difference between the maximum and minimum of the guideline range
exceeds 24 months, and the specific sentence is imposed for these reasons: (Use Section VIII if necessary).
The court departs from the guideline range for one or more reasons provided in the Guidelines Manual.
(Also complete Section V)

D. ✔ The court imposed a sentence otherwise outside the sentencing guideline system (i.e., a variance).
V.

(Also complete Section VI)

DEPARTURES PURSUANT TO THE GUIDELINES MANUAL (If applicable)
A. The sentence imposed departs: (Check only one)
above the guideline range
below the guideline range
B. Motion for departure before the court pursuant to: (Check all that apply and specify reason(s) in sections C and D)
1. Plea Agreement
binding plea agreement for departure accepted by the court
plea agreement for departure, which the court finds to be reasonable
plea agreement that states that the government will not oppose a defense departure motion
2. Motion Not Addressed in a Plea Agreement
government motion for departure
defense motion for departure to which the government did not object
defense motion for departure to which the government objected
joint motion by both parties
3. Other
Other than a plea agreement or motion by the parties for departure
C. Reasons for departure: (Check all that apply)
4A1.3
5H1.1
5H1.2

Criminal History Inadequacy
Age
Education and Vocational Skills

5K2.1
5K2.2
5K2.3

5H1.3

Mental and Emotional Condition

5H1.4

Physical Condition

5H1.5
5H1.6

Employment Record
Family Ties and Responsibilities

5H1.11
5H1.11
5K1.1
5K2.0

Military Service
Charitable Service/Good Works
Substantial Assistance
Aggravating/Mitigating
Circumstances

Death
Physical Injury
Extreme Psychological
Injury
5K2.4 Abduction or Unlawful
Restraint
5K2.5 Property Damage or
Loss
5K2.6 Weapon
5K2.7 Disruption of
Government Function
5K2.8 Extreme Conduct
5K2.9 Criminal Purpose
5K2.10 Victim’s Conduct
5K2.11 Lesser Harm

5K2.12 Coercion and Duress
5K2.13 Diminished Capacity
5K2.14 Public Welfare
5K2.16 Voluntary Disclosure of Offense
5K2.17 High-Capacity Semiautomatic Weapon
5K2.18 Violent Street Gang
5K2.20 Aberrant Behavior
5K2.21
5K2.22
5K2.23
5K2.24
5K3.1

Dismissed and Uncharged Conduct
Sex Offender Characteristics
Discharged Terms of Imprisonment
Unauthorized Insignia
Early Disposition Program (EDP)

Other Guideline Reason(s) for Departure, to include departures pursuant to the commentary in the Guidelines Manual: (see “List of
Departure Provisions” following the Index in the Guidelines Manual.) (Please specify)

D. State the basis for the departure.

(Use Section VIII if necessary)

A10

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

Filed 09/20/19 Page 10 of 11

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Attachment (Page 3) — Statement of Reasons
v1

Not for Public Disclosure

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001
DISTRICT: SOUTHERN DISTRICT OF IOWA

STATEMENT OF REASONS
VI.

COURT DETERMINATION FOR A VARIANCE (If applicable)
A. The sentence imposed is: (Check only one)
above the guideline range
✔ below the guideline range
B. Motion for a variance before the court pursuant to: (Check all that apply and specify reason(s) in sections C and D)
1. Plea Agreement
binding plea agreement for a variance accepted by the court
plea agreement for a variance, which the court finds to be reasonable
plea agreement that states that the government will not oppose a defense motion for a variance
2. Motion Not Addressed in a Plea Agreement
government motion for a variance
defense motion for a variance to which the government did not object
✔ defense motion for a variance to which the government objected
joint motion by both parties
3. Other
Other than a plea agreement or motion by the parties for a variance
C. 18 U.S.C. § 3553(a) and other reason(s) for a variance (Check all that apply)
The nature and circumstances of the offense pursuant to 18 U.S.C. § 3553(a)(1):
Mens Rea
Extreme Conduct
Dismissed/Uncharged Conduct
Role in the Offense
Victim Impact
General Aggravating or Mitigating Factors: (Specify)
✔

The history and characteristics of the defendant pursuant to 18 U.S.C. § 3553(a)(1):
✔ Lack of Youthful Guidance
Aberrant Behavior
Age
Mental and Emotional Condition
Charitable Service/Good
Military Service
Works
Community Ties
Non-Violent Offender
Diminished Capacity
Physical Condition
✔ Drug or Alcohol Dependence ✔ Pre-sentence Rehabilitation
Employment Record
Remorse/Lack of Remorse
✔ Other: (Specify) Childhood trauma
Family Ties and
Responsibilities
Issues with Criminal History: (Specify)
To reflect the seriousness of the offense, to promote respect for the law, and to provide just punishment for the offense
(18 U.S.C. § 3553(a)(2)(A))
To afford adequate deterrence to criminal conduct (18 U.S.C. § 3553(a)(2)(B))
To protect the public from further crimes of the defendant (18 U.S.C. § 3553(a)(2)(C))
To provide the defendant with needed educational or vocational training (18 U.S.C. § 3553(a)(2)(D))
To provide the defendant with medical care (18 U.S.C. § 3553(a)(2)(D))
To provide the defendant with other correctional treatment in the most effective manner (18 U.S.C. § 3553(a)(2)(D))
To avoid unwarranted sentencing disparities among defendants (18 U.S.C. § 3553(a)(6)) (Specify in section D)
To provide restitution to any victims of the offense (18 U.S.C. § 3553(a)(7))
Cooperation Without Government Motion for
✔ Conduct Pre-trial/On Bond
Acceptance of Responsibility
Departure
Early Plea Agreement
Global Plea Agreement
Time Served (not counted in sentence)
Waiver of Indictment
Waiver of Appeal
Policy Disagreement with the Guidelines (Kimbrough v. U.S., 552 U.S. 85 (2007): (Specify)

Other: (Specify)
D. State the basis for a variance. (Use Section VIII if necessary)
The sentence was imposed after considering all the factors set forth in 18 U.S.C. § 3553(a), as dictated into the
A11
record at the time of sentencing.

Case 4:19-cr-00054-RGE-HCA Document 52 *SEALED*

Filed 09/20/19 Page 11 of 11
Not for Public Disclosure

AO 245B (Rev. 03/19) Judgment in a Criminal Case
Attachment (Page 4) — Statement of Reasons
v1

DEFENDANT: TIMOTHY ALLEN MCWILLIAMS
CASE NUMBER: 4:19-CR-00054-001
DISTRICT: SOUTHERN DISTRICT OF IOWA

STATEMENT OF REASONS
VII.

COURT DETERMINATIONS OF RESTITUTION
A. ✔ Restitution not applicable.
B. Total amount of restitution:

$0.00

C. Restitution not ordered: (Check only one)
1.

For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A, restitution is not ordered because
the number of identifiable victims is so large as to make restitution impracticable under 18 U.S.C. § 3663A(c)(3)(A).
For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A, restitution is not ordered
because determining complex issues of fact and relating them to the cause or amount of the victims’ losses would
complicate or prolong the sentencing process to a degree that the need to provide restitution to any victim would be
outweighed by the burden on the sentencing process under 18 U.S.C. § 3663A(c)(3)(B).
For other offenses for which restitution is authorized under 18 U.S.C. § 3663 and/or required by the sentencing
guidelines, restitution is not ordered because the complication and prolongation of the sentencing process resulting
from the fashioning of a restitution order outweigh the need to provide restitution to any victims under 18 U.S.C. §
3663(a)(1)(B)(ii).
For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327 or
3663A, restitution is not ordered because the victim(s)'(s) losses were not ascertainable (18 U.S.C. § 3664(d)(5)).
For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327 or
3663A, restitution is not ordered because the victim(s) elected to not participate in any phase of determining the
restitution order (18 U.S.C. § 3664(g)(1)).
Restitution is not ordered for other reasons: (Explain)

2.

3.

4.
5.
6.
D.

Partial restitution is ordered for these reasons: (18 U.S.C. § 3553(c))

VIII. ADDITIONAL BASIS FOR THE SENTENCE IN THIS CASE (If applicable)

Defendant’s Soc. Sec. No.:

506-90-8517

Defendant’s Date of Birth:

10/22/1970

Defendant’s Residence
Address:

Date of Imposition of Judgment:

Signature of Judge
Rebecca Goodgame Ebinger, U.S. District Judge
Name and Title of Judge

U.S. Marshals Service custody

Date:
Defendant’s Mailing
Address:

September 20, 2019

U.S. Marshals Service custody

A12

September 20, 2019

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-3158
___________________
United States of America
Plaintiff - Appellee
v.
Timothy Allen McWilliams
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:19-cr-00054-RGE-1)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
May 29, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-3158

Page: 1

A13
Date Filed: 05/29/2020 Entry ID: 4918061

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-3158
___________________________
United States of America,
lllllllllllllllllllllPlaintiff - Appellee,
v.
Timothy Allen McWilliams,
lllllllllllllllllllllDefendant - Appellant.
____________
Appeal from United States District Court
for the Southern District of Iowa - Des Moines
____________
Submitted: April 17, 2020
Filed: May 29, 2020
[Unpublished]
____________
Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.
____________
PER CURIAM.
Timothy McWilliams pleaded guilty to one count of possession with intent to
distribute five grams or more of methamphetamine. See 21 U.S.C. § 841(a)(1),

Appellate Case: 19-3158

Page: 1

A14
Date Filed: 05/29/2020 Entry ID: 4918052

(b)(1)(B). At sentencing, the district court1 varied downward from the advisory
guideline range of 188 to 235 months’ imprisonment and sentenced McWilliams to
151 months in prison. McWilliams argues on appeal that the district court committed
procedural error in calculating the advisory guideline range when it determined that
he qualified as a career offender under USSG § 4B1.1.
The district court determined that McWilliams qualified as a career offender
based on his prior convictions in Iowa for domestic abuse assault and conspiracy to
manufacture a controlled substance. A defendant is a career offender if he “has at
least two prior felony convictions of either a crime of violence or a controlled
substance offense.” USSG § 4B1.1(a). A “controlled substance offense” includes an
offense that “prohibits the manufacture, import, export, distribution, or dispensing of
a controlled substance.” USSG § 4B1.2(b). Application Note 1 to § 4B1.2 states that
the terms “‘[c]rime of violence’ and ‘controlled substance offense’ include the
offenses of aiding and abetting, conspiring, and attempting to commit such offenses.”
USSG § 4B1.2, comment. (n.1).
McWilliams argues that his prior conviction for conspiracy to manufacture a
controlled substance does not qualify as a “controlled substance offense” because the
guideline does not encompass inchoate offenses like conspiracy and attempt. Citing
United States v. Havis, 927 F.3d 382, 387 (6th Cir. 2019) (en banc) (per curiam), and
United States v. Winstead, 890 F.3d 1082, 1091 (D.C. Cir. 2018), he contends that the
guideline commentary is invalid because it is inconsistent with the guideline and is
not an interpretation of the guideline at all.
McWilliams’s argument is foreclosed by circuit precedent. United States v.
Merritt, 934 F.3d 809, 811 (8th Cir. 2019); United States v. Williams, 926 F.3d 966,

1

The Honorable Rebecca Goodgame Ebinger, United States District Judge for
the Southern District of Iowa.
-2-

Appellate Case: 19-3158

Page: 2

A15
Date Filed: 05/29/2020 Entry ID: 4918052

971 (8th Cir. 2019); United States v. Bailey, 677 F.3d 816, 818 (8th Cir. 2012) (per
curiam). These decisions construed United States v. Mendoza-Figueroa, 65 F.3d 691
(8th Cir. 1995) (en banc), as deciding that the commentary is valid, and that a drug
conspiracy offense is a controlled substance offense. Other circuits likewise have
held that the commentary is valid and that inchoate drug offenses qualify as
controlled substance offenses under the guidelines. United States v. Lange, 862 F.3d
1290, 1294-96 (11th Cir. 2017); United States v. Chavez, 660 F.3d 1215, 1226-28
(10th Cir. 2011); United States v. Piper, 35 F.3d 611, 617 (1st Cir. 1994); see also
United States v. Adams, 934 F.3d 720, 727-30 (7th Cir. 2019) (construing USSG
§ 2K2.1). We note that the Sentencing Commission has published a proposed
amendment to USSG § 4B1.2 that would resolve the disagreement among the circuits
on this issue. See Sentencing Guidelines for United States Courts, 83 Fed. Reg.
65400, 65412-15 (proposed Dec. 20, 2018) (to be codified at USSG § 4B1.2).
For these reasons, there was no error in calculating the advisory guideline
range, and the judgment of the district court is affirmed.
______________________________

-3-

Appellate Case: 19-3158

Page: 3

A16
Date Filed: 05/29/2020 Entry ID: 4918052

